No. _ _ _ _ __
In the Supreme Court of the United States
COUNTY COMMISSIONERS OF CARROLL COUNTY, MARYLAND,
Petitioner,
v.
MARYLAND DEPARTMENT OF THE ENVIRONMENT,
Respondent.

CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29.5, I certify that I caused this Petition
to be served to all parties required to be served, in accordance with Supreme Court
Rule 29.3, and that 3 copies were sent via UPS Ground Service and one via e-mail to
the following parties listed below, this 4th day of November, 2019:
Kunle Adeyemo
Assistant Attorney General
1800 Washington Boulevard
Baltimore, MD 21230
(410) 537-3704
Adam D. Snyder
Assistant Attorney General
200 St. Paul Place, 20th Floor
Baltimore, MD 21202
(410) 576-6398

Counsel for Respondent Maryland
Department of the Environment

CHRISTOPHER D . POMEROY

Counsel of Record
AquaLaw PLC
6 S. 5th Street
Richmond, Virginia 23219
(804) 716-9021
chris@aquala w .com
Counsel for Petitioner

